DISTRICT COURT OF APPEAL, FIRST DISTRICT
2000 Drayton Drive
Tallahassee, Florida 32399-0950
Telephone No. (850)488-6151
December 07, 2020
CASE NO.: 1D20-2553
L.T. No.: 2019-CFMA-0866

Steven Cooper
Appellant / Petitioners),

v.

State of Florida
Appellee / Respondent(s)

BY ORDER OF THE COURT:
The Court having determined that Logan v. State, 846 So. 2d 472 (Fla. 2004), does not
require dismissal of the petition, the show cause order of October 6, 2020, is discharged.
The petition for writ of mandamus is denied on the merits.
B.L. THOMAS, MAKAR, and TANENBAUM, JJ., concur.
I HEREBY CERTIFY that the foregoing is (a true copy of) the original court order.
Served:
Hon. Ashley Moody, AG
Hon. Brantley S. Clark Jr.,
Judge
co

kRISTINA SAMUELS, CLERK

Hon. Bill Kinsaul, Clerk
Steven Cooper

Filing# 112672293 E-Filed08/31/2020 11:59:28PM

In the District Court of Appeal
First District of Florida
CASE NO. SC20<s

<L>
Cl,

Lower Court Case No.: 2019-CFMA-0866

&
<
<4-i

O

ts
o
U

STEVEN COOPER
Petitioner,

o

BS3
Q
•is

v.

Ph

<u
U

STATE OF FLORIDA;

£
m
o
o

Respondents,

<N
O
CN
O
(N
O

Os
O

Q
W

PETITION
FOR
MANDAMUS

>

i-h

w

u

3

/s/ STEVEN COOPER
850-312-5243
P.O.BOX 18617
PANAMA CITY, FL 32417
AdversePossessionIsNotaCrime@gmail.com
Petitioner affirmatively seeks to discharge court-appointed counsel in response to the
incompetent ineffective assistance currently being provided.

MANDAMUS PETITION TO WITHDRAW CAPIAS
Petitioner Steven Cooper respectfully moves this Honorable Court for
mandamus and all writs necessary, completely exercising its jurisdiction, in
an original action under Rule 9.100(a) of the Florida Rules of Appellate
Procedure. This Court has original jurisdiction over this petition under Fla.
R. App. Pro. 9.030(a)(3) and art. V, sec. 3(b)(7)(8), Fla. Const.
This Petition follows willful manifest injustice attack upon a lawabiding adverse possessor
unlawfully trespassed 2) falsely arrested
3)maliciously prosecuted 4) intentionally deprived of fundamental rights.
Petitioner is a victim of an onslaught of grotesque negligence by State
Constitutional Offices and its Officers in opposition of Florida Statutes as an
attack upon his adverse possession and in retaliation to his complaints.
Petitioner was first criminally trespassed from his adversely possessed
property in April of 2018. Then, after thirteen months of civil litigation,
retaliatory arrested for grand theft and criminal mischief by a warrant issued
thirteen days after submission of a written complaint. Since the arrest he has
received incompetent, intentionaUy-ineffective assistance of counsel and
biased unfair prejudice from the court such as ignoring a written waiver of
appearance followed by issuance of a failure to appear capias.
Petitioner elected to waive his constitutional right to be present at a
December 17th pretrial conference and directed the assigned public defender
to file a written waiver. Evidence of an adversarial relationship, the
incompetent public defender prejudicially refused, thus requiring the written
waiver be made pro per. At the States' request, with no objection or
representation provided by the assigned public defender, the trial court
issued a capias with a $7,500 bond. Petitioner seeks to have the Written
Waiver of Appearance recognized and the capias thereby quashed.
Petitioner makes the following statements in support of the relief sought:

Page 1 of 8

1.
On December 29, 2017, petitioner satisfied the requirements, of
Fla.Stat. 95.18 Real property actions; adverse possession without color of
title, thereby establishing possession of an abandoned parcel * in
unincorporated section of Bay County, FL.1
.j

On April 20, 2018, the Bay County Sheriff’s Office2 approached
2.
Petitioner while improving the adversely possessed property and issued a
Trespass Notice against him for “not being owner of record” despite making
the required return and having established possession.3 J
1 ' 'ljtT
.

<

.

■

.

.

.

.

•

■■

,

i.On.May 30, 2018, Petitioner petitioned the circuit.,court/;for
Mandamus, Injunctive, and Declaratory relief.4 On February 5*^2019,*
Petitioner filed a written complaint with the Bay County Sheriff’s Office.5
**■

.

■'

v

'

.

■. r

.P

Thirteen days later on February 18th’ the. Sheriffs Office reopened
1 4.
the previously closed Case # 2018-0317726, assigned investigator/Aubrey
Chance is in lieu of the original deputy (Macias) whom two days later oh
February 20th.’ investigator submitted1 a Complaint-Affidavit > Warrant
Application as the complainant.7
.i

1

(l)Paid all delinquent taxes and outstanding fees in the amount of $2,248.68 (2)Immediately
thereafter made a Return of Real Property in Attempt to Establish Adverse Possession Without
Color of Title (form DR-452) personally to the Bay County Property Appraiser (3)Upon
satisfying these prerequisites, commenced maintenance and improvements to the property.
2 Initiated and requested by Bay County Code Enforcement manager Kathy Ashman. " *
-r
3 Inconsiderate of his open, continuous, exclusive, actual, notorious possession and the “owner of
record” not being present living in Kentucky, nor requesting assistance from the Sheriffs Office
or Code Enforcement regarding the civil issue.
4 To correct the unlawful issuance of the trespass notice, prevent the County from demolishing
structures on the property after having him unlawfully trespassed, and explain the Doctrine of
Adverse Possession as mandated by Fla.Stat. 95.18 thereby declaring his rights and allow for his
continued lawful adverse possession without threat, intimidation, and harassment from these
agencies.
5 Stating the Trespass Notice issuance was improper because the Sheriffs Office “lacked
• authorization to act as an "authorized person" to order an alleged trespasser to leave private
property when the agency had not received written authorization from the owner” in direct
. conflict with Fla.Stat 810.08(3) citing Florida Attorney General Advisory Legal Opinion-AGO
904)8.
. .■
6 Previously “CLOSED” on 4/20/18 with the Trespass Notice issuance.
i
7 Stating “the defendant claimed “Adverse Possession”.. .without having any legal right to do so...
did not even have the minimum requirement of seven years worth of Tax Certificates to begin
the process of adversely possessing the property” as probable cause narrative. . The State
Attorneys’ Office is not consulted to administer the oath as mandated by law. Instead, having no
Page 2 of 8

defendant shallcbe:present uriless-the defendant!waives'.this inwritihg.’.’iThe
court‘held’ three iarraignmentssr^^btwice withouftinformation'.andj the [third
' time Assigned puBli C|defender -plead'despite /Petitioner's objection'for (doing
soiless than!24 hours after, the:iriformation .was not provided'.forjreview. and
advice; Held a calendar.call againwithout noticeofwaiver,rdeliberately/after.
his*Jtnon-^-demand iispeedyTmbtice lofrexpifatiorip) allowed .juryHtriallcto
commence without assigned*!Staterattorney present!onlyi tol“getconIrecorda
- Petitioners refusal)toEaccepti a'tbench'ftrialLthehrdelayed trial tin', bad tfaith*
, without ireaspii^tnotice oriorder{tbtia tiateitpast 50hday5speedy ldemand
t! expiration; then reserved ruling a judicial notice request and disposedrof'the
already expired trial date because Petitioner waived his right to be present
’ TOeTijt^ent b'ehihd^these7acti'onsVaires’c6ncern>,-certainlyrdor|nbi*“promote a
; fairand^expeditious\iai” rathef,^appear anorganiz^pSchemeY6'liarm!3znLrG:)
r ^rilod bmfirraJoqnioani ad ol navorq and IsartuoD Lsnorgail liviO bna JaiftnoD
avi7f^plieitrialTcourt«has an^indisputableMegal; duty^toicbmplyiwithithe
^ 'miesJbf rcnminahprbcedurerrSee Iiynch jl-736 Sorted rat i222.«tThere ibeingino
gbo4»(cause!itoibyerrideiPetiti6her’siwaiver,hithererexistslnbilegal;-basis for.
^ t issuing the capias. Counsel does not have the authority or discretion* to.deny
' Petitioner’s waiver rights. Refusal contravenes his ability to waive
. appearance^in^its entirety ^d^is^ne^fjmahyrexarrplesI'bfJtHe,^LSsigned
public^^defenders'^^incbmpetent^^intentibnaily^ineftective^^ assistance*
, ^andamcts- must be :granfedLtocinstruct te ffikVouft‘Wacc^?¥etition(S:,,*s
written waiver of appearance and quash the invalid capias?*^
ladmaaaG
►

*

»

)

|

I

r

•

-2tl8. *sThe^assigned public'defender suffocatedpetitibners right to^a written
plea‘s wmv^anmg^ent;3tMen3wHen^c^nvenient to meei Aef ■antipathy 3sHe
.unetliicaHy3 waivedt'Hi^^presenee^at tlie speeciyl demand fcalenclar *call^—
' mWmoi^iy^reScehtJ’witliout notification—nin^spite'of Him involang^peaiy
expira^ion7nbtic^then^ainqsHendepn^dihtin3oYlusTi§Eit\owaive^presence
to?a%tile^|>refflaiheamg.marfw ^df> sd 1?4im .haiarmb oti ol 3i it morlw ot
you Juoiiiiv/ ad laum li iol gniylqcc coEioq ad) boa jbalaalib ad yam ihw
.({19.1)Itiis quite (elementary courts'.may judicially notice')documents from*
cases,crelateduor inot/ onlyj tor.the '.extent ofirecbgnizingithei filing^of^tht
documents or the judicial acts and the subject matter of the litigation, not/to
notice the alleged facts contained in those documents in an attempt to
establisli?thfe triitlii:'of suctrfkcts.^It* is xouhsers,fpurpbse^and) obligation- to
“* , clarifytiliis appVb^a?ddess^hdt^the,defmdants7rthusvtheferis;: 'al)solutely'no'
.' reason*why ‘Petitions''wbuld^iieed to~be'pr^entrito> hear judicialcnotice
. arguments sHouid He choose'notP R atossoiq Urv/ ™
Ann istooa
*x

.tarifomj ot haEfai ion

i

1

!

!

i

tuc hsffl mcfe? aavig noiJaibahupyncm toojrlu?. JuoriliW ”
(
Page 5 of 81

f

!

20. The court improperly delayed the December 2nd trial to a January 6th
date past the expiration of the November 7th 50-day speedy demand, after
attempting to pressure Petitioner to forgo his right to a jury trial. Then,
despite written waiver, the court disposed the January 6th trial date and
issued a capias because Petitioner waived his right to be present. A desire to
see Petitioner harmed by arrest and indefinite incarceration explains these
questionable actions. Not one attempt has been made to inform Petitioner a
capias was issued or that trial was disposed of. Assigned public defender has
not contacted him and it’s safe to assume she made no argument on his
behalf against issuing the capias given his waiver. The court or pretrial
release program hasn’t even attempted to contact Petitioner to inform or
inquire about his location. It seems reasonable at the very least that Assigned
public defender is ethically responsible for informing those she represents of
a terminated court date and an existent capias, not to mention pleading for it
to be set aside given the waiver and, that the Court would mail written notice
or at least have the pretrial release department attempt to contact Petitioner.
Instead, the judicial system ran by those involved herein prefer the ambush
and arrest method, salivating thinking of Petitioner's unexpected arrest and
prolonged detention.
21. These actions reek of deliberate injustice and when considered
against an innocent individual in full compliance with this State’s Law of
adverse possession; deliberate injustice translates to malicious persecution,
intentional deprivation, and violation of petitioners Constitutional Rights.
22. The court failed to consider the written waiver or whether good
cause exists to notify and require Petitioner’s presence thus issuance of the
capias was erroneous and without discretion. Once capias issued he is with
no other legal remedy for relief. Petitioner's fundamental rights have been
violated and for these reasons the petition for writ of mandamus must be
granted, and the capias quashed.
Wherefore, Petitioner prays this Honorable Court will grant the relief
requested, mandate the lower court immediately quash the erroneously
capias upon recognition and acceptance of the written appearance waiver
and representation of petitioners presence made by appointed counsel, and
for all additional relief this court deems appropriate (Prohibition) in response
to the State prosecuting an adverse possessor contradictory to and despite his
compliance with Florida Statutes 95.18.
/s/ Steven Cooper, Pro Per
Page 6 of 8

CERTIFICATE OF INTERESTED PARTY
Brantley S. Clark, Jr. is the Circuit Judge presiding over the defendants'
prosecution in the lower court.
Respectfully Submitted,
/s/ Steven Cooper, Pro Per
Petitioning Defendant
CERTIFICATE OF SERVICE
I certify that a copy hereof has been furnished immediately hereafter filing
this document on this 31st day of August 2020, via email and/or electronic
service to Circuit Court Judge Brantley S. Clark, Jr. at
ClarkB@JUD14.FLCourts.org and Jennifer.moore@myfloridalegal.com,
Attorney for State of Florida Assistant Attorney General Office of the
Attorney General Pl-01, the Capitol Tallahassee, FI 32399-1050:
Respectfully Submitted,
/s/ Steven Cooper. Pro Per
Petitioning Defendant
CERTIFICATE OF COMPLIANCE
I certify that the size and style of type used in this brief is Courier New 12
point Font and Times New Roman 14- point Font and complies with the font
requirements of Florida Rule of Appellate Procedure 9.210(a) (2).
Respectfully Submitted,
/s/ Steven Cooper. Pro Per
Petitioning Defendant
850-312-5243
P.O. BOX 18617
PANAMA CITY, FL 32417

Page 7 of 8

Filing # 100393209 E-Filed 12/16/2019 04:54:54 PM

IN THE CIRCUIT COURT, IN AND FOR BAY COUNTY FLORIDA

STATE OF FLORIDA,
Plaintiff,
vs.

CASE NO. 032019CF00866A

STEVEN COOPER,
Defendant,

WRITTEN WAIVER OF APPEARANCE
The Defendant, STEVEN COOPER, pursuant to Fla.R.Crim.P 3.180(a)(3) and
3.220(pXl), and Watters v. State, 905 So. 2d 974 (Fla. 1st DCA 2005), hereby files his written
waiver of appearance for the December 17, 2019, pre trial management conference. In support
thereof, Defendant states as follows:
1. Rule 3.180(aX3), Florida Rules of Criminal Procedure, states that “[i]n all prosecutions
for crime the defendant shall be present... unless waived by the defendant in writing.”
2. Rule 3.220(p)(l), Florida Rules of Criminal Procedure, permits a trial court to hold one
or more pre-trial conferences and provides that “[t]he defendant shall be present unless
the defendant waives this in writing.”
3. In Watters v. State, 905 So. 2d 974, 977 (Fla. 1st DCA 2005), “the district court held that
a court’s refusal to accept a defendant’s written waiver of appearance at a pre-trial
i

conference was in direct contravention of the rules of criminal procedure and therefore
warranted mandamus relief” citing Lynch v. State, 736 So.2d 1221 (Fla. 5th DCA 1999)
and “where the trial court rejected a defendant's signed, written waiver of appearance for
a pretrial status conference in his criminal prosecution and required the defendant's

1
personal appearance, the trial court contravened the clear dictates of Florida Rules of
Criminal Procedure” citing Stout v. State, 795 So.2d 227 (Fla. 4th DCA 2001).
4. The 14th Judicial Circuit Office of the Public Defender and the assigned Public Defender
continues to intentionally provide incompetent ineffective assistance by its refusal to file
a written waiver of appearance for the December 17, 2019, pre trial management
conference, despite the Defendants multiple request to do so, stating “I am not filing a
waiver of your presence” because “you are represented by counsel” of which has nothing
to do with and is in direct conflict with Fla.R.Crim.P 3.180(a)(3) and 3.220(p)(l),
Walters v. State, 905 So. 2d 974 (Fla. 1st DCA 2005), and in violation of its
Constitutional obligations, and the Rules, Ethics & Professionalism requirements as
regulated by the Florida Bar.
5. Although the Defendant may be “assigned” counsel, he surely is not “represented” by
counsel and he undoubtedly has been deprived of the assistance of counsel so guaranteed
by the Sixth Amendment to the United States Constitution.
Respectfully Submitted,
/s/ Steven Cooper. Pro Per
CERTIFICATE OF SFRVirF
I HEREBY CERTIFY that a true and correct copy of the foregoing document has been furnished
to the Office ofthe State Attorney at: 421 Magnolia Ave. Panama City, FL 32401 by mailing by
pre-paid first class U.S. mail on this 16th day of December, 2019, Attn:
1. Cord Grimes
2. Calie Marie
Respectfully Submitted,
/s/ Steven Cooper. Pro Per

3/8/2021

Gmail - Re: Third and Final Request Re: Waiver ctf Presence RE: 12/17 FT Mgmt

I | Mr. Cooper,

!| I| We are having the motion hearing regarding the state's request that the court take
j | judicial notice of the pleadings filed in the civil lawsuit you filed. I need you to be present for
l court.

j s Ann
On Fri, Dec 13, 2019 at 3:10 PM Pleasant Oak Ct <pleasantoakct@gmail.com> wrote:
j Ms. Grabner,
| | Pursuant to Fla.R.Crim.P 3.180(a)(3) and 3.220(p)(l), I waive my right to be present for the
!( j

December 17, 2019, pre-trial management conference.
For your convenience, I have drafted and signed the attached waiver.

!
Please sign, file the attached waiver with the court, and provide a copy thereof for my
records at your earliest convenience in advance of the scheduled event.

i !
"Injustice anywhere is a threat to justice everywhere" thus "what affects one directly, affects all
indirectly".

https ://mail^oogle.corn/mail/Li/0?ik=ab4cec10d6&\/ew=pt&search=querv&perrrmsgid=msg-a%3Ar7223619421303871451&dsqt=1&simpl=%23rrag-a%3Ar722...

2/2

Gmail - Re- Third and Final Request Re: Waiver of Presence RE: 12/17 FT MgfflL

3/8/2021

M Gmail

Pleasant Oak Ct <pleasantoakct@gmail.com>

Re: Third and Final Request Re: Waiver of Presence RE: 12/17 PT Mgmt.
Pleasant Oak Ct <pleasantoakct@gmail.com>
Draft

Mon, Mar 8, 2021 at 3:52 PM

From: Ann Grabner <ann.grabner@pd14.fl.gov>
^ Date: Mon, Dec 16, 2019 at 12:11 PM
Subject: Re: Third and Final Request Re: Waiver of Presence RE: 12/17 PTMgmt.
To: Pleasant Oak Ct <pleasantoakct@gmail.com>
Cc: Mark Sims <mark.sims@pd14.fl.gov>, Kimberly Jewell <kimber!y.jewell@pd14.fl.gov>, Brittany Smith
<brittany.smith@pd14.fl.gov>

Mr. Cooper,
Correct, you are represented by counsel and I am not filing a waiver of your presence for tomorrow's court date.
Ann
i j On Mon, Dec 16, 2019 at 12:06 PM Pleasant Oak Ct <pleasantoakct@gmail.com> wrote:
*7 j Ms. Grabner,
Are you refusing to file the Written Waiver of Presence? Please state with specificity whether you will
comply or once again seek to deprive me of my rights.
The decision to waive a constitutional right to be present is mine and I elect to waive my right to be
present for the December 17, 2019, pre-trial management conference pursuant to Fla.R.Crim.P
3.180(a)(3) and 3.220(p)(l) therefore, I will not be present.
Given your intentional ineffective assistance and incompetence, I have drafted and signed the
attached waiver for you to sign, file and provide a copy thereof with sufficient time to do so in
advance of the scheduled event.
Please ensure you file a Written Waiver (the one provided or one of your choice) on this day or specify
your refusal to do so.

3

On Mon, Dec 16, 2019 at 10:11 AM Pleasant Oak Ct <pleasantoakct@gmail.com> wrote:
Ms. Grabner,
The decision to waive a constitutional right to be present is mine and independent of your pseudo
"need".
I elect to waive my right to be present for the December 17, 2019, pre-trial management
conference pursuant to Fla.R.Crim.P 3.180(a)(3) and 3.220(p)(l) therefore, I will not be present.
Given your intentional ineffective assistance and incompetence, I have drafted and signed the
attached waiver for you to sign, file and provide a copy thereof with sufficient time to do so in
advance of the scheduled event.
Please ensure you do so.

3

On Sat, Dec 14, 2019 at 3:20 PM Ann Grabner <ann.grabner@pd14.fl.gov> wrote:

https://rrail.google.conVmail/u/0?il^ab4c^10[16&view=pt&search=qiiery&pernTnsgicr=msg-a%3Ar7223619421303871451&dsqt=1&simp!=%23msg-a%3Ar722...

1/2

Filing#99604038 E-Filed 12/02/2019 12:32:37 AM

1

IN THE CIRCUIT COURT, IN AND FOR BAY COUNTY FLORIDA

STATE OF FLORIDA,
Plaintiff,
CASE NO. 019000866CFMA

vs.

STEVEN COOPER,
Defendant,

MOTION TO DISCHARGE INCOMPETENT INEFFECTIVE COUNSEL
The Defendant, STEVEN COOPER, moves this Honorable Court to discharge the 14th
Judicial Circuit Office of the Public Defender from any and all further representation of the
Defendant from the above styled cause and files this Motion to Discharge Counsel necessitated
by the Public Defenders incompetency and intentional ineffective assistance, resulting in an
adversarial relationship. This request is unequivocal and the following is provided in support
thereof:
The court appointed counsel has failed to properly represent the Defendant through its
incompetent and intentional ineffective actions, and/or lack thereof, of which give rise to
fundamental error should this Honorable Court deny the requested relief. The ends of justice
would be best served by allowing the Defendant Replacement Counsel, as/if needed given the
previously filed Motion for Discharge and Notice of Expiration of Speedy Trial Time.
Specific allegations suggesting the Office of the Public Defender’s incompetent and
intentional ineffectiveness include but are not limited to:
INCOMPET INTENTIONAL INEFFECTIVE ASSISTANCE OF COUNSEL

2

1. Absence / Refusal to meet with and represent Defendant until arraignment; six
weeks after arrest.
2. Refusal to file desired written plea of not guilty and arraignment waiver in
accordance with FLR.Cr.Pr 3.160 for arbitrary / self serving reasons.
3. Providing and suggesting Defendant sign an erroneous “waiver of presence” not
in accordance with or citing any Rules of Procedure, Statutory or Case Law.
4. Intentionally failing to timely provide discovery materials.
5. Pleading to the Charges against the will, wishes and desire of the Defendant.
6. Refusing to provide specifically demanded discovery materials and motions.
7. Purposefully misleading Defendant as to calendared events and Orders.
8. Refusing to investigate and interview/depose witnesses.
9. Refusing to consult and confer with Defendant despite specific request.
10. Refusal to invoke / file Notice of Expiration of Speedy Trial Time.
11. Insulting and making derogatory comments towards the Defendant.
12. Filing invalid Demand for Speedy Trial after expiration and pro per filing,
followed by attending Demand hearing without noticing Defendant and thereby
waiving his presence without his approval or knowledge.
13. Pressuring Defendant to waive his right to a jury trial after expiration of speedy
trial time.

ADVERSARIAL RELATIONSHIP
On October 25, 2019, at 3:06 pm the Defendant reached out to the appointed Public
Defender stating, “The Speedy Trial period commenced on May 2, 2019, expired yesterday,
October 24th, and, as of the time of this message, you have yet to file the required Notice of
Expiration of Speedy Trial Time in accordance with FRCP 3.191 of which is necessary to
invoke my right to a fair and speedy trial; a right 1 have not waived. Please ensure you file the
required Notice of Expiration of Speedy Trial Time by the end of this day.”

3

That Friday night, at 11:10 pm, the appointed Public Defender (Ann Grabner) replied
“your problems are psychological In nature, you need to seek help elsewhere”, intentionally
depriving the Defendant of his Due Process rights.
Despite reminding the appointed Public Defender (Ann Grabner) that the Speedy Trial
Time had expired and directing her to file the required Notice of Expiration of Speedy Trial
Time on October 25she chose to attack and insult the Defendant. Both clear violations of the
Rules, Ethics & Professionalism requirements as regulated by the Florida Bar, her oath as a
Public Employee, and the Defendants Constitutional Rights.

She followed this despicable

display of unprofessionalism not just by intentionally suffocating the Defendants Constitutional
Rights, but by seeking to further harm him by prejudicially filing an invalid demand for speedy
trial on November 7,2019, despite “setting the case for trial” already being set for December 2nd
in 25 days.
The Defendant asked the appointed Public Defender (Ann Grabner) on Novmber 8* to
“Please state your motives and explain why you filed a Demand for Speedy Trial: 1. After the
expiration of the Speedy Trial (without demand) Time Period. 2. After refusing to file the
required Notice of Expiration of Speedy Trial Time. 3. After setting the case for trial has already
occurred.” and to this date, no response has been provided.
Instead, the appointed Public Defender (Ann Grabner) has continued her dangerous,
rogue and prejudicing ways by attending the 11/12/19 calendar call for demand for speedy
without providing notice to the Defendant and waiving his presence without his consent.

4

WHEREFORE, the Defendant requests this Honorable Court discharge the 14th Judicial
Circuit Office of the Public Defender from any and all further representation of the Defendant
and issue Defendants previously requested Order forever discharging him from the above styled
cause upon the States failure to bring him to trial prior to expiration of his Constitutional Speedy
Trial rights.
Respectfully Submitted,
/s/ Steven Cooper. Pro Per

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of the foregoing document has been furnished
to the Office of the State Attorney at: 421 Magnolia Ave. Panama City, FL 32401 by mailing by
c'

pre-paid first class U.S. mail on this 1st day of December, 2019, Attn:
1. Cord Grimes
2. Calie Marie

Respectfully Submitted,
/s/ Steven Cooper. Pro Per

